                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

Case Number: 107100039                                                                           Page 1 of 1



                                                                                1
         We conducted a joint investigation with NASA OIG involving a PI at a Georgia college2 who
         submitted false claims to NSF and NASA on grants over a five year period. Our investigation
         revealed that the PI charged personal travel costs to an NSF grant and two NASA grants, used
         grant funds for personal purchases, and charged the grants for advertising and printing expenses
         for an unrelated art exhibit. The PI also charged the federal grants for activities related to his
         personal interest in art such as trips to attend art exhibits, festivals, and meetings with art experts
         all over the world.

         Our investigation resulted in a settlement agreement requiring the college to reimburse the
         federal government $1.2 million and to enter into a five-year compliance plan. Ultimately, the
         college did not renew the PI's employment contract. As a result of our recommendation, NSF
         debarred the PI for five years.

         Accordingly, this case is closed.




NSF OIG Form 2 (11102)
